1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE OF NINTH CIRCUIT
COUNTY OF SAN MATEO,
individually and on behalf of
the People of the State of
California,
Plaintiff-Appellee,
v.
CHEVRON CORPORATION;
CHEVRON U.S.A. INC.;
EXXONMOBIL CORPORATION; BP
PLC; BP AMERICA, INC.; ROYAL
DUTCH SHELL PLC; SHELL OIL
PRODUCTS COMPANY LLC;
CITGO PETROLEUM
CORPORATION;
CONOCOPHILLIPS;
CONOCOPHILLIPS COMPANY;
PHILLIPS 66 COMPANY;
PEABODY ENERGY
CORPORATION; TOTAL E&P
USA, INC.; TOTAL SPECIALTIES
USA, INC.; ARCH COAL INC.;
ENI OIL & GAS, INC.; RIO TINTO
ENERGY AMERICA, INC.; RIO
TINTO MINERALS, INC.; RIO
TINTO SERVICES, INC.;
ANADARKO PETROLEUM

No. 18-15499
D.C. No.
3:17-cv-04929-VC

2a
CORPORATION; OCCIDENTAL
PETROLEUM CORPORATION;
OCCIDENTAL CHEMICAL
CORPORATION; REPSOL ENERGY
NORTH AMERICA CORP.;
REPSOL TRADING USA CORP.;
MARATHON OIL COMPANY;
MARATHON OIL CORPORATION;
MARATHON PETROLEUM CORP.;
HESS CORP.; DEVON ENERGY
CORP.; DEVON ENERGY
PRODUCTION COMPANY, LP;
ENCANA CORPORATION;
APACHE CORP.,
Defendants-Appellants.
CITY OF IMPERIAL BEACH,
individually and on behalf of
the People of the State of
California,
Plaintiff-Appellee,
v.
CHEVRON CORPORATION;
CHEVRON U.S.A. INC.;
EXXONMOBIL CORPORATION;
BP PLC; BP AMERICA, INC.;
ROYAL DUTCH SHELL PLC;
SHELL OIL PRODUCTS
COMPANY LLC; CITGO
PETROLEUM CORPORATION;
CONOCOPHILLIPS;
CONOCOPHILLIPS COMPANY;

No. 18-15502
D.C. No.
3:17-cv-04934-VC

3a
PHILLIPS 66 COMPANY;
PEABODY ENERGY
CORPORATION; TOTAL E&P
USA, INC.; TOTAL
SPECIALTIES USA, INC.; ARCH
COAL INC.; ENI OIL & GAS,
INC.; RIO TINTO ENERGY
AMERICA, INC.; RIO TINTO
MINERALS, INC.; RIO TINTO
SERVICES, INC.; ANADARKO
PETROLEUM CORPORATION;
OCCIDENTAL PETROLEUM
CORPORATION; OCCIDENTAL
CHEMICAL CORPORATION;
REPSOL ENERGY NORTH
AMERICA CORP.; REPSOL
TRADING USA CORP.;
MARATHON OIL COMPANY;
MARATHON OIL
CORPORATION; MARATHON
PETROLEUM CORP.; HESS
CORP.; DEVON ENERGY CORP.;
DEVON ENERGY PRODUCTION
COMPANY, LP; ENCANA
CORPORATION; APACHE CORP.,
Defendants- Appellants.
COUNTY OF MARIN,
individually and on behalf of
the People of the State of California,
Plaintiff-Appellee,

No. 18-15503
D.C. No.
3:17-cv-04935-VC

4a
v.
CHEVRON CORPORATION;
CHEVRON U.S.A. INC.;
EXXONMOBIL CORPORATION;
BP PLC; BP AMERICA, INC.;
ROYAL DUTCH SHELL PLC;
SHELL OIL PRODUCTS
COMPANY LLC; CITGO
PETROLEUM CORPORATION;
CONOCOPHILLIPS;
CONOCOPHILLIPS COMPANY;
PHILLIPS 66 COMPANY;
PEABODY ENERGY
CORPORATION; TOTAL E&P
USA, INC.; TOTAL
SPECIALTIES USA, INC.; ARCH
COAL INC.; ENI OIL & GAS,
INC.; RIO TINTO ENERGY
AMERICA, INC.; RIO TINTO
MINERALS, INC.; RIO TINTO
SERVICES, INC.; ANADARKO
PETROLEUM CORPORATION;
OCCIDENTAL PETROLEUM
CORPORATION; OCCIDENTAL
CHEMICAL CORPORATION;
REPSOL ENERGY NORTH
AMERICA CORP.; REPSOL
TRADING USA CORP.;
MARATHON OIL COMPANY;
MARATHON OIL
CORPORATION; MARATHON
PETROLEUM CORP.; HESS
CORP.; DEVON ENERGY CORP.;
DEVON ENERGY PRODUCTION

5a
COMPANY, LP; ENCANA
CORPORATION; APACHE CORP.,
Defendants-Appellants.
COUNTY OF SANTA CRUZ,
individually and on behalf of
The People of the State of
California; CITY OF SANTA
CRUZ, a municipal corporation, individually and on behalf of The People of the State
of California; CITY OF
RICHMOND, individually and
on behalf of The People of the
State of California,
Plaintiffs-Appellees,
v.
CHEVRON CORPORATION;
CHEVRON USA INC.; ROYAL
DUTCH SHELL PLC; BP PLC;
SHELL OIL PRODUCTS
COMPANY LLC; BP AMERICA,
INC.; EXXON MOBIL
CORPORATION;
CONOCOPHILLIPS;
CONOCOPHILLIPS COMPANY;
ANADARKO PETROLEUM
CORPORATION; APACHE
CORPORATION; DEVON
ENERGY CORPORATION;
DEVON ENERGY PRODUCTION
COMPANY, LP; TOTAL E&P

No. 18-16376
D.C. Nos.
3:18-cv-00450-VC
3:18-cv-00458-VC
3:18-cv-00732-VC

OPINION

6a
USA, INC.; TOTAL
SPECIALTIES USA, INC.;
ENCANA CORPORATION;
CITGO PETROLEUM
CORPORATION; HESS
CORPORATION; MARATHON
OIL COMPANY; MARATHON OIL
CORPORATION; REPSOL
ENERGY NORTH AMERICA
CORPORATION; REPSOL
TRADING USA CORPORATION;
PHILLIPS 66 COMPANY;
OCCIDENTAL PETROLEUM
CORPORATION; OCCIDENTAL
CHEMICAL CORPORATION; ENI
OIL & GAS, INC.; MARATHON
PETROLEUM CORPORATION,
Defendants-Appellants
Appeal from the United States District Court
for the Northern District of California
Vince Chhabria, District Judge, Presiding
Argued and Submitted February 5, 2020
Pasadena, California
Filed May 26, 2020
Before: Sandra S. Ikuta, Morgan Christen, and
Kenneth K. Lee, Circuit Judges.
Opinion by Judge Ikuta

7a
_____________________________________________
SUMMARY∗
_____________________________________________
Removal/Subject-Matter
Jurisdiction/Appellate Jurisdiction
On appeal from the district court’s order remanding complaints to the state court from which they had
been removed, the panel dismissed the appeal in part
for lack of jurisdiction and affirmed in part, holding
that defendants did not carry their burden of establishing the criteria for federal-officer removal under
28 U.S.C. § 1442(a)(1).
The County of San Mateo and other cities and
counties filed six complaints in California state court
against more than thirty energy companies, alleging
nuisance and other causes of action arising from the
role of fossil fuel products in global warming. The energy companies removed the cases to federal court.
The district court granted plaintiffs’ motions to remand, rejecting all eight of the grounds on which the
energy companies relied for subject-matter jurisdiction.
Dismissing in part, the panel held that under 28
U.S.C. § 1447(d), it had jurisdiction to review the removal order only to the extent the order addressed
whether removal was proper under § 1442(a)(1). The
panel concluded that the non-reviewability clause of
§ 1447(d) applied because the district court remanded
based on a lack of subject-matter jurisdiction. Declining to follow the Seventh Circuit, the panel held that
∗ This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

8a
under the “exception clause” of § 1447(d), authorizing
review of removal pursuant to 28 U.S.C. §§ 1442 and
1443, it had jurisdiction to review whether removal
was proper under § 1442(a)(1), but the exception
clause did not subject the district court’s entire remand order to plenary review. The panel followed Patel v. Del Taco, Inc., 446 F.3d 996 (9th Cir. 2006), concluding that Patel was not abrogated either by intervening judicial authority or by Congress’s 2011
amendment of § 1447(d) to insert § 1442.
Affirming in part, the panel held that the district
court did not err in holding that there was no subjectmatter jurisdiction under the federal-officer removal
statute. The panel concluded that the energy companies failed to establish that they were “acting under”
a federal officer’s directions based on three agreements with the government: CITGO’s fuel supply
agreements with the Navy Exchange Service Command, a unit agreement for the petroleum reserves at
Elk Hills between Standard Oil Company of California and the U.S. Navy, and the energy companies’ Oil
and Gas Leases of Submerged Lands Under the Outer
Continental Shelf Lands Act.
_________________________________________________

9a
COUNSEL
Theodore J. Boutrous, Jr. (argued), Andrea E. Neuman, William E. Thomson, and Joshua S. Lipshutz,
Gibson Dunn & Crutcher LLP, Los Angeles, California; Herbert J. Stern and Joel M. Silverstein, Stern &
Kilcullen LLC, Florham Park, New Jersey; Neal S.
Manne, Johnny W. Carter, Erica Harris, and Steven
Shepard, Susman Godfrey LLP, Houston, Texas; for
Defendants-Appellants Chevron Corporation and
Chevron U.S.A. Inc.
Jonathan W. Hughes, Arnold & Porter Kaye Scholer
LLP, San Francisco, California; Matthew T. Heartney
and John D. Lombardo, Arnold & Porter Kaye Scholer
LLP, Los Angeles, California; Philip H. Curtis and
Nancy Milburn, Arnold & Porter Kaye Scholer LLP,
New York, New York; for Defendants-Appellants BP
PLC and BP America, Inc.
Sean C. Grimsley and Jameson R. Jones, Bartlit Beck
LLP, Denver, Colorado; Megan R. Nishikawa and
Nicholas A. Miller-Stratton, King & Spalding LLP,
San Francisco, California; Tracie J. Renfroe and Carol
M. Wood, King & Spalding LLP, Houston, Texas; for
Defendants-Appellants ConocoPhillips and ConocoPhillips Company.
M. Randall Oppenheimer and Dawn Sestito, O’Melveny & Myers LLP, Los Angeles, California; Theodore
V. Wells, Jr., Daniel J. Toal, and Jaren E. Janghorbani, Paul Weiss Rifkind Wharton & Garrison LLP,
New York, New York; for Defendant-Appellant Exxon
Mobil Corporation.
Daniel B. Levin, Munger Tolles & Olson LLP, Los Angeles, California; Jerome C. Roth and Elizabeth A.
Kim, Munger Tolles & Olson LLP, San Francisco, California; David C. Frederick and Brendan J. Crimmins,

10a
Kellogg Hansen Todd Figel & Frederick P.L.L.C.,
Washington, D.C.; for Defendants-Appellants Royal
Dutch Shell PLC and Shell Oil Products Company
LLC.
Bryan M. Killian, Morgan Lewis & Bockius LLP,
Washington, D.C.; James J. Dragna and Yardena R.
Zwang-Weissman, Morgan Lewis & Bockius LLP, Los
Angeles, California; for Defendant-Appellant Anadarko Petroleum Corporation.
Thomas F. Koegel, Crowell & Moring LLP, San Francisco, California; Kathleen Taylor Sooy and Tracy A.
Roman, Crowell & Moring LLP, Washington, D.C.; for
Defendant-Appellant Arch Coal Inc.
Mortimer Hartwell, Vinson & Elkins LLP, San Francisco, California; Patrick W. Mizell and Deborah C.
Milner, Vinson & Elkins LLP, Houston, Texas; for Defendant-Appellant Apache Corp.
William M. Sloan and Jessica L. Grant, Venable LLP,
San Francisco, California; for Defendant-Appellant
Peabody Energy Corporation.
Mark McKane P.C., Kirkland & Ellis LLP, San Francisco, California; Andrew A. Kassof, P.C., and Brenton
Rogers, Kirkland & Ellis LLP, Chicago, Illinois; for
Defendants-Appellants Rio Tinto Energy America,
Inc.; Rio Tinto Minerals, Inc.; and Rio Tinto Services,
Inc.
Gregory Evans, McGuireWoods LLP, Los Angeles,
California; Steven R. Williams, Joy C. Fuhr, and
Brian D. Schmalzbach, McGuireWoods LLP, Richmond, Virginia; for Defendants-Appellants Devon Energy Corp. and Devon Energy Production Company,
LP.

11a
Christopher W. Keegan, Kirkland & Ellis LLP, San
Francisco, California; Andrew R. McGaan, P.C., Kirkland & Ellis LLP, Chicago, Illinois; Anna G. Rotman,
P.C., Kirkland & Ellis LLP, Houston, Texas; Bryan D.
Rohm, Total E&P USA, Inc., Houston, Texas; for Defendants-Appellants Total E&P USA, Inc.; and Total
Specialties USA, Inc.
Michael F. Healy, Shook Hardy & Bacon LLP, San
Francisco, California; Michael L. Fox, Duane Morris
LLP, San Francisco, California; for Defendant-Appellant Encana Corporation.
Craig A. Moyer and Peter Duchesneau, Manatt
Phelps & Phillips LLP, Los Angeles, California;
Stephanie A. Roeser, Manatt Phelps & Phillips LLP,
San Francisco, California; Nathan P. Eimer, Lisa S.
Meyer, Pamela R. Hanebutt, and Raphael Janove,
Eimer Stahl LLP, Chicago, Illinois; for Defendant-Appellant CITGO Petroleum Corporation.
Christopher J. Carr and Jonathan A. Shapiro, Baker
Botts L.L.P., San Francisco, California; Scott Janoe,
Baker Botts L.L.P., Houston, Texas; Evan Young,
Baker Botts L.L.P., Austin, Texas; Megan Berge,
Baker Botts L.L.P., Washington, D.C.; for Defendants-Appellants Hess Corp., Marathon Oil Company,
Marathon Oil Corporation, Repsol Energy North
America Corp., and Repsol Trading USA Corp.
Steven M. Bauer and Margaret A. Tough, Latham &
Watkins LLP, San Francisco, California; for Defendant-Appellant Phillips 66 Company.
David E. Cranston, Greenberg Glusker Fields Claman
& Machtinger LLP, Los Angeles, California; for Defendant-Appellant Eni Oil & Gas, Inc.

12a
Marc A. Fuller and Matthew R. Stammel, Vinson &
Elkins L.L.P., Dallas, Texas; Stephen C. Lewis and R.
Morgan Gilhuly, Barg Coffin Lewis & Trapp LLP, San
Francisco, California; for Defendants-Appellants Occidental Petroleum Corporation and Occidental
Chemical Corporation.
Shannon S. Broome and Ann Marie Mortimer,
Hunton Andrews Kurth LLP, San Francisco, California; Shawn Patrick Regan, Hunton Andrews Kurth
LLP, New York, New York; for Defendant-Appellant
Marathon Petroleum Corp.
Victor M. Sher (argued), Matthew K. Edling, Katie H.
Jones, and Martin D. Quiñones, Sher Edling LLP, San
Francisco, California; Kevin K. Russell, Sarah E. Harrington, and Charles H. Davis, Goldstein & Russell
P.C., Bethesda, Maryland; for Plaintiffs-Appellees.
John C. Beiers, Paul A. Okada, David A. Silberman,
Margaret V. Tides, and Matthew J. Sanders, Office of
the County Counsel, Redwood City, California; for
Plaintiff-Appellee County of San Mateo.
Brian E. Washington, Brian C. Case, and Brandon
Halter, Office of the County Counsel, San Rafael, California, for Plaintiff-Appellee County of Marin.
Jennifer Lyon and Steven E. Boehmer, McDougal
Love Boehmer Foley Lyon & Canlas, Office of the City
Attorney, La Mesa, California, for Plaintiff-Appellee
City of Imperial Beach.
Dana McRae and Jordan Sheinbaum, Office of the
County Counsel, Santa Cruz, California, for PlaintiffAppellee County of Santa Cruz.
Anthony P. Condotti, City Attorney, Santa Cruz, California, for Plaintiff-Appellee City of Santa Cruz.

13a
Bruce Reed Goodmiller and Rachel H. Sommovilla,
City Attorney’s Office, Richmond, California, for
Plaintiff-Appellee City of Richmond.
Steven P. Lehotsky, Michael B. Schon, and Jonathan
D. Urick, U.S. Chamber Litigation Center, Washington, D.C.; Peter D. Keisler, C. Frederick Beckner III,
Ryan C. Morris, and Tobias S. Loss-Eaton, Sidley Austin LLP, Washington, D.C.; for Amicus Curiae Chamber of Commerce of the United States of America.
Gerson H. Smoger, Smoger & Associates P.C., Dallas,
Texas; Robert S. Peck, Center for Constitutional Litigation P.C., Washington, D.C.; for Amicus Curiae
Senator Sheldon Whitehouse.
Scott L. Nelson and Allison M. Zieve, Public Citizen
Litigation Group, Washington, D.C., for Amicus Curiae Public Citizen, Inc.
James R. Williams, County Counsel; Greta S. Hansen,
Chief Assistant County Counsel; Laura S. Trice, Lead
Deputy County Counsel; Tony LoPresti, Deputy
County Counsel; Office of the County Counsel, County
of Santa Clara, San José, California; for Amicus Curiae California State Association of Counties.
Ian Fein, Natural Resources Defense Council, San
Francisco, California; Peter Huffman, Natural Resources Defense Council, Washington, D.C.; for Amicus Curiae Natural Resources Defense Council.

14a
OPINION
IKUTA, Circuit Judge:
In this appeal, we consider a district court’s order
remanding complaints to state court after the defendants had removed the complaints to federal court on
eight separate grounds. Under 28 U.S.C. § 1447(d),
we have jurisdiction to review the remand order only
to the extent it addresses whether removal was proper
under § 1442(a)(1), see Patel v. Del Taco, Inc., 446 F.3d
996, 998 (9th Cir. 2006), which authorizes removal by
“any person acting under” a federal officer, 28 U.S.C.
§ 1442(a)(1). We conclude that the defendants did not
carry their burden of establishing this criteria for removal. Because we lack jurisdiction to review other
aspects of the remand order, we dismiss the remainder of the appeal.
I
The County of San Mateo, the County of Marin,
and the City of Imperial Beach filed three materially
similar complaints in California state court against
more than 30 energy companies in July 2017. 1 The
complaints allege that the Energy Companies’ “extraction, refining, and/or formulation of fossil fuel
products; their introduction of fossil fuel products into
the stream of commerce; their wrongful promotion of
their fossil fuel products and concealment of known
hazards associated with use of those products; and
their failure to pursue less hazardous alternatives
available to them; is a substantial factor in causing
the increase in global mean temperature and consequent increase in global mean sea surface height.”
We refer to the plaintiffs collectively as the “Counties” and to
the defendants collectively as the “Energy Companies.”
1

15a
Based on these allegations, the complaints assert
causes of action for public and private nuisance, strict
liability for failure to warn, strict liability for design
defect, negligence, negligent failure to warn, and trespass.
The Energy Companies removed the three complaints to federal court, asserting seven bases for subject-matter jurisdiction, including jurisdiction under
the federal-officer removal statute, 28 U.S.C.
§ 1442(a)(1). The three cases were assigned to Judge
Vince G. Chhabria.
Shortly thereafter, the County of Santa Cruz, the
City of Santa Cruz, and the City of Richmond filed materially similar complaints in California state court.
The Energy Companies removed these cases to federal
court as well, asserting the same seven bases for subject-matter jurisdiction, 2 and they were also assigned
to Judge Chhabria. 3
The Counties, in all six cases, moved to remand to
state court based on a lack of subject-matter jurisdiction. In a reasoned opinion, the district court rejected

Marathon Petroleum Corporation raised an eighth ground
for removal: that the complaints raised issues concerning maritime activities, giving rise to admiralty jurisdiction. See 28
U.S.C. § 1333.
2

The city attorneys of Oakland and San Francisco filed similar actions in California state court. Those cases were removed
and assigned to Judge William H. Alsup, who subsequently dismissed the action for failure to state a claim and for lack of personal jurisdiction. See City of Oakland v. BP p.l.c., 325 F. Supp.
3d 1017 (N.D. Cal. 2018); City of Oakland v. BP p.l.c., 2018 WL
3609055 (N.D. Cal. July 27, 2018). In a concurrently filed opinion, we resolve the appeal from those cases. See City of Oakland
v. BP p.l.c., — F.3d — (9th Cir. 2020).
3

16a
all eight of the grounds on which the Energy Companies relied for subject-matter jurisdiction, but the district court stayed its remand orders to give the Energy
Companies an opportunity to appeal. “[W]e have jurisdiction to determine whether we have jurisdiction
to hear [a] case.” Atl. Nat’l Tr. LLC v. Mt. Hawley Ins.
Co., 621 F.3d 931, 933 (9th Cir. 2010) (citation omitted).
II
Our authority to review an order remanding a
case to state court is limited. Under 28 U.S.C.
§ 1447(d), “[1] [a]n order remanding a case to the State
court from which it was removed is not reviewable on
appeal or otherwise, [2] except that an order remanding a case to the State court from which it was removed pursuant to section 1442 or 1443 of this title
shall be reviewable by appeal or otherwise.” We consider the Energy Companies’ arguments that we may
conduct a plenary review of the district court’s remand
order under both of these clauses.
A
Although the first clause in § 1447(d) (the “nonreviewability clause”) broadly prohibits review of “[a]n
order remanding a case to the State court from which
it was removed,” the Supreme Court has interpreted
this language narrowly as prohibiting review only if a
remand order was issued based on a ground enumerated in § 1447(c). 4 Atl. Nat’l Tr., 621 F.3d at 934 (citing Thermtron Prods., Inc. v. Hermansdorfer, 423 U.S.

4

Section 1447(c) states, in pertinent part:
A motion to remand the case on the basis of any defect
other than lack of subject matter jurisdiction must be

17a
336, 343 (1976)). When a district court bases its remand order on one of the grounds in § 1447(c)—i.e.,
the district court “remands based on subject matter
jurisdiction [or] nonjurisdictional defects”—as opposed to, for example, based on a merits determination or concerns about a heavy docket, id. at 934–35,
“review is unavailable no matter how plain the legal
error in ordering the remand,” Briscoe v. Bell, 432 U.S.
404, 413 n.13 (1977). “[R]eview of the District Court’s
characterization of its remand as resting upon lack of
subject-matter jurisdiction, to the extent it is permissible at all, should be limited to confirming that that
characterization was colorable.” Powerex Corp. v. Reliant Energy Servs., Inc., 551 U.S. 224, 234 (2007).
The Energy Companies argue that the district
court’s order remanded the complaints on a ground
that cannot be “colorably characterized as subjectmatter jurisdiction.” Id. Specifically, the Energy
Companies contend that the district court remanded
the complaints based on a merits determination when
it held that “federal common law d[id] not govern the
[Counties’] claims” and therefore “d[id] not preclude
[the Counties] from asserting . . . state law claims.”
We reject this argument. The district court ordered remand based on its view that the cases were
“improperly removed to federal court” because the Energy Companies failed to show that “the case[s] . . .
fit[] within one of a small handful of small boxes”
providing for subject-matter jurisdiction. Put simply,
made within 30 days after the filing of the notice of removal under section 1446(a). If at any time before final
judgment it appears that the district court lacks subject
matter jurisdiction, the case shall be remanded.
28 U.S.C. § 1447(c).

18a
the district court concluded that it “lack[ed] subject
matter jurisdiction.” 28 U.S.C. § 1447(c). Even if the
district court erred in reaching this conclusion, “review is unavailable no matter how plain the legal error in ordering the remand.” Kircher v. Putnam
Funds Tr., 547 U.S. 633, 642 (2006) (citing Briscoe,
432 U.S. at 413 n.13). To the extent Powerex requires
that we determine whether the district court’s conclusion that “federal common law [d]id not govern the
[Counties’] claims” was “at least arguable,”
Townsquare Media, Inc. v. Brill, 652 F.3d 767, 775
(7th Cir. 2011) (citing Atl. Nat’l Tr., 621 F.3d at 937–
38, 940), we hold that it was, see City of Oakland v. BP
p.l.c., — F.3d — (9th Cir. 2020) (holding that the district court erred in concluding that there was subjectmatter jurisdiction on the ground that the plaintiffs’
state-law nuisance claims were “necessarily governed
by federal common law”).
B
We next consider the Energy Companies’ argument that the second clause of § 1447(d) (the “exception clause”) requires us to conduct plenary review of
the district court’s remand order. We have interpreted the exception clause as giving us the authority
to review the district court’s remand order only to the
extent that the order addresses the statutory sections
listed in the clause. See Patel v. Del Taco, Inc., 446
F.3d 996, 998 (9th Cir. 2006). In Patel, the defendants
removed a state-court complaint to federal court under § 1443(1), which provides for removal of civilrights cases. Id. The district court granted the plaintiff’s motion for remand on the ground that removal
was not proper under either § 1441 or § 1443(1). Id.
We held that, under § 1447(d), we lacked jurisdiction
“to review the remand order based on § 1441” and

19a
thus dismissed the defendants’ appeal to the extent it
was based on that section. Id. 5 At the same time, we
held that we had jurisdiction “to review the remand
order based on . . . § 1443(1).” Id. The reasoning in
Patel applies directly to our case. Under § 1447(d), as
interpreted in Patel, we have jurisdiction to review the
Energy Companies’ appeal to the extent the remand
order addresses § 1442(a)(1), but we lack jurisdiction
to review their appeal from the portions of the remand
order considering the seven other bases for subjectmatter jurisdiction.
Arguing against this conclusion, the Energy Companies contend that when a suit is “removed pursuant
to section 1442,” 28 U.S.C. § 1447(d), the district
court’s entire remand order is subject to plenary review. The Energy Companies base this argument on
a Seventh Circuit case, Lu Junhong v. Boeing Co.,
which concluded that because § 1447(d) authorizes
appellate review of “an order,” it authorizes review of
“the order itself,” not just “particular reasons for an
order.” 792 F.3d 805, 812 (7th Cir. 2015). In reaching
this conclusion, the Seventh Circuit relied on Yamaha
Motor Corp., U.S.A. v. Calhoun, which construed a
statute (28 U.S.C. § 1292(b)) giving appellate courts
jurisdiction to review interlocutory orders that a district court certifies for immediate appeal. 516 U.S.
199 (1996). 6 Yamaha concluded that § 1292(b) gives
Patel considered an earlier version of § 1447(d), which did not
include § 1442 in the exception clause. See Removal Clarification
Act of 2011, Pub. L. No. 112-51, § 2, 125 Stat. 545, 546 (2011).
5

Section 1292(b) provides that “[w]hen a district judge, in
making . . . an order not otherwise appealable” determines that
the order meets certain criteria and that “an immediate appeal
from the order may materially advance the ultimate termination
of the litigation, he shall so state in writing in such order,” and
6

20a
an appellate court jurisdiction over “any issue fairly
included within the certified order because ‘it is the
order that is appealable, and not the controlling question identified by the district court.’” Id. at 205 (citation omitted).
The Energy Companies urge us to follow Lu Junhong notwithstanding our decision in Patel for two
reasons. First, they argue that Patel has been abrogated by an act of Congress. After Patel was decided,
Congress enacted the Removal Clarification Act of
2011, which amended § 1447(d) to allow for review of
remand orders in cases removed pursuant to § 1442.
See Removal Clarification Act of 2011, Pub. L. No.
112-51, § 2, 125 Stat. 545, 546 (2011). According to
the Energy Companies, Congress’s failure to amend
the reference in § 1447(d) to orders “reviewable by appeal,” means that Congress intended to adopt
Yamaha’s interpretive approach and therefore authorized plenary review of remand orders for cases removed pursuant to § 1442. 7 Second, the Energy Companies argue that we are not bound by Patel because
it was not well reasoned: it did not provide any
grounds for its conclusion that we lacked jurisdiction
to conduct a plenary review of the remand order.
Both of these arguments implicate our doctrine of
stare decisis. We have long held that “one three-judge
panel . . . cannot reconsider or overrule the decision of
a prior panel,” United States v. Gay, 967 F.2d 322, 327
“[t]he Court of Appeals . . . may thereupon, in its discretion, permit an appeal to be taken from such order.” 28 U.S.C. § 1292(b).
The Energy Companies do not argue that Yamaha abrogated
Patel, nor could they, given that Yamaha was decided in 1996—
a decade before Patel—and thus is not “intervening higher authority.” Miller v. Gammie, 335 F.3d 889, 893 (9th Cir. 2003) (en
banc).
7

21a
(9th Cir. 1992), unless “our prior circuit authority is
clearly irreconcilable with the reasoning or theory of
intervening higher authority,” Miller v. Gammie, 335
F.3d 889, 893 (9th Cir. 2003) (en banc).
There is no intervening judicial authority that
would abrogate Patel. Neither the Supreme Court nor
an en banc panel of this court has issued a decision
after Patel was decided in 2006 that is clearly irreconcilable with Patel’s conclusion that § 1447(d) limits
our review to the grounds for removal covered by the
exception clause. Therefore, we consider only the effect of Congress’s amendment of § 1447(d) in 2011.
Before Congress’s amendment of § 1447(d), every
circuit court that had addressed this issue agreed with
our reading of § 1447(d). 8 Although Yamaha was decided in 1996 (ten years before we decided Patel), no
circuit court had applied Yamaha to § 1447(d) or discussed its applicability in that context. Therefore,
when Congress amended § 1447(d) to insert “1442 or”
before “1443,” Removal Clarification Act of 2011 § 2,
it was against a backdrop of unanimous judicial interpretation of § 1447(d) as permitting review of only the
grounds for removal identified in the exception clause.
Congress did not give any indication that it intended
to overrule the then-unanimous interpretation of
§ 1447(d) as limiting judicial review of a remand order

See Alabama v. Conley, 245 F.3d 1292, 1293 n.1 (11th Cir.
2001); Davis v. Glanton, 107 F.3d 1044, 1047 (3d Cir. 1997);
Thornton v. Holloway, 70 F.3d 522, 524 (8th Cir. 1995); State
Farm Mut. Auto. Ins. Co. v. Baasch, 644 F.2d 94, 97 (2d Cir.
1981); Detroit Police Lieutenants & Sergeants Ass’n v. City of Detroit, 597 F.2d 566, 567 (6th Cir. 1979); Robertson v. Ball, 534
F.2d 63, 66 & n.5 (5th Cir. 1976); Noel v. McCain, 538 F.2d 633,
635 (4th Cir. 1976).
8

22a
to the grounds listed in the exception clause. We “presume that Congress acts ‘with awareness of relevant
judicial decisions.’” United States v. Alvarez-Hernandez, 478 F.3d 1060, 1065 (9th Cir. 2007) (quoting
United States v. Male Juvenile, 280 F.3d 1008, 1016
(9th Cir. 2002)). And “when ‘judicial interpretations
have settled the meaning of an existing statutory provision, repetition of the same language in a new statute indicates, as a general matter, the intent to incorporate [the statute’s] . . . judicial interpretations as
well.” Id. (quoting Merrill Lynch, Pierce, Fenner &
Smith Inc. v. Dabit, 547 U.S. 71, 85 (2006)). Accordingly, we conclude that Congress did not abrogate Patel sub silentio but rather “inten[ded] to incorporate”
Patel’s (and six other circuits’) interpretation of
§ 1447(d). Id. (citation omitted). The Fourth Circuit
has reached the same conclusion. See Mayor & City
Council of Baltimore v. BP P.L.C., 952 F.3d 452, 461
(4th Cir. 2020) (“[T]he fact that Congress later added
§ 1442 as an exception to § 1447(d)’s no-appeal rule for
remand orders does not undermine our holding . . .
that appellate courts only have jurisdiction to review
those grounds for removal that are specifically enumerated in § 1447(d).”). We therefore conclude that
Congress’s amendment of § 1447(d) did not abrogate
our interpretation in Patel.
The Energy Companies also argue that we are not
bound by Patel because it was not well reasoned and
failed to analyze Yamaha or the statutory interpretation arguments discussed in Lu Junhong. Were we
writing on a clean slate, we might conclude that Lu
Junhong provides a more persuasive interpretation of
§ 1447(d) than Patel. But see Baltimore, 952 F.3d at
459–60. Precedents, however, do not cease to be au-

23a
thoritative merely because counsel in a later case advances new arguments. See United States v. RamosMedina, 706 F.3d 932, 939 (9th Cir. 2013) (“This panel
is not free to disregard the decision of another panel
of our court simply because we think the arguments
have been characterized differently or more persuasively.”). Therefore, we remain bound by Patel until
abrogated by an intervening higher authority.
Applying Patel’s reading of § 1447(d), we may review the district court’s remand order only to the extent it addresses § 1442(a)(1). 446 F.3d at 998; accord
Baltimore, 952 F.3d at 461. Accordingly, we dismiss
the Energy Companies’ appeals for lack of jurisdiction
to the extent the Energy Companies seek review of the
district court’s ruling as to other bases for subjectmatter jurisdiction. See Patel, 446 F.3d at 1000.
III
We now turn to the single ground of removal that
we have jurisdiction to review: the question whether
the district court erred in holding that there was no
subject-matter jurisdiction under the federal-officer
removal statute, 28 U.S.C. § 1442(a)(1). We review
questions of statutory construction and subject-matter jurisdiction de novo. Ritchey v. Upjohn Drug Co.,
139 F.3d 1313, 1315 (9th Cir. 1998). The defendant
has the burden of proving by a preponderance of the
evidence that the requirements for removal jurisdiction have been met. Leite v. Crane Co., 749 F.3d 1117,
1122 (9th Cir. 2014).
As currently drafted, § 1442(a)(1) provides for removal of:
A civil action . . . that is against or directed to
. . . [t]he United States or any agency thereof
or any officer (or any person acting under that

24a
officer) of the United States or of any agency
thereof, in an official or individual capacity,
for or relating to any act under color of such
office or on account of any right, title or authority claimed under any Act of Congress for
the apprehension or punishment of criminals
or the collection of the revenue.
28 U.S.C. § 1442(a)(1) (emphasis added).
In order to invoke § 1442(a)(1), a private person
must establish: “(a) it is a person within the meaning
of the statute; (b) there is a causal nexus between its
actions, taken pursuant to a federal officer’s directions, and [the] plaintiff’s claims; and (c) it can assert
a colorable federal defense.” Riggs v. Airbus Helicopters, Inc., 939 F.3d 981, 986–87 (9th Cir. 2019) (quoting Fidelitad, Inc. v. Insitu, Inc., 904 F.3d 1095, 1099
(9th Cir. 2018)). To demonstrate a causal nexus, the
private person must show: (1) that the person was
“acting under” a federal officer in performing some
“act under color of federal office,” and (2) that such action is causally connected with the plaintiffs’ claims.
See Goncalves ex rel. Goncalves v. Rady Children’s
Hosp. San Diego, 865 F.3d 1237, 1244 (9th Cir. 2017).
The parties focus on the first prong: whether the
Energy Companies were “acting under” a federal officer’s directions. We begin by providing some background. The federal officer removal statute has existed in some version since 1815. Willingham v. Morgan, 395 U.S. 402, 405 (1969). Although Congress has
amended the statute on a number of occasions, see
Watson v. Philip Morris Cos., 551 U.S. 142, 147–49
(2007), most recently in 2011, see Removal Clarification Act of 2011 § 2, the purpose of the statute has remained essentially the same: “The statute’s history

25a
and th[e] Court’s cases demonstrate that its basic purpose is to protect the Federal Government from the
interference with its operations that would ensue
were a State able, for example, to arrest and bring to
trial in a State court for an alleged offense against the
law of the State, officers and agents of the Government acting . . . within the scope of their authority.”
Watson, 551 U.S. at 150 (cleaned up) (quoting Willingham, 395 U.S. at 406). Congress thought that allowing a federal officer to remove a state action was necessary because “[s]tate-court proceedings may reflect
‘local prejudice’ against unpopular federal laws or federal officials” and “deprive federal officials of a federal
forum in which to assert federal immunity defenses.”
Id. (citation omitted). Moreover, state-court proceedings may have the effect of impeding or delaying the
enforcement of federal law. Id. The federal officer removal statute should be “liberally construed” to fulfill
its purpose of allowing federal officials and agents
who are being prosecuted in state court for acts taken
in their federal authority to remove the case to federal
court. Id. at 147 (citation omitted).
When Congress first enacted § 1442(a)(1), the
phrase “officer of the United States” was generally understood as a term of art that referred to federal officers who “exercis[ed] significant authority.” Int’l Primate Prot. League v. Adm’rs of Tulane Educ. Fund,
500 U.S. 72, 81 (1991) (quoting Buckley v. Valeo, 424
U.S. 1, 126 (1976)). In 1948, Congress amended the
statute to include the language “person[s] acting under” any officer of the United States. Act of June 25,
1948, ch. 646, § 1442, 62 Stat. 869, 938 (codified at 28
U.S.C. § 1442). At the time, this change was understood as extending the section to apply to employees,

26a
as well as officers. Int’l Primate Prot. League, 500 U.S.
at 84 (quoting H.R. Rep. No. 80-308, at A134 (1947)).
The Supreme Court subsequently interpreted the
term “person acting under that officer” as extending
to a “private person” who has certain types of close relationships with the federal government. See Watson,
551 U.S. at 152–53. The Supreme Court has identified a number of factors courts should consider in determining whether a private person is “acting under”
a federal officer for purposes of § 1442(a)(1). Among
other things, the Court considers whether the person
is acting on behalf of the officer in a manner akin to
an agency relationship. See id. at 151 (private person
must be authorized to act “with or for federal officers”); see also Goncalves, 865 F.3d at 1246 (holding
that a private person qualified as “acting under” a federal officer when it was “serving as the government’s
agent”); Cabalce v. Thomas E. Blanchard & Assocs.,
Inc., 797 F.3d 720, 729 (9th Cir. 2015) (noting that a
company’s independent-contractor status supported
the conclusion that it was not acting under a federal
officer). The Court also considers whether the person
is subject to the officer’s close direction, such as acting
under the “subjection, guidance, or control” of the officer, or in a relationship which “is an unusually close
one involving detailed regulation, monitoring, or supervision.” Watson, 551 U.S. at 151, 153 (citation
omitted); see also Leite, 749 F.3d at 1120, 1124 (holding that a defense contractor properly removed a case
under § 1442(a)(1) based, in part, on “the Navy’s detailed specifications regulating the warnings that
equipment manufacturers were required to provide”).
Third, the Court considers whether the private person
is assisting the federal officer in fulfilling “basic governmental tasks” that “the Government itself would

27a
have had to perform” if it had not contracted with a
private firm. Watson, 551 U.S. at 153–54; see also
Goncalves, 865 F.3d at 1246–47 (holding that private
person fulfilled a basic governmental task by pursuing
subrogation claims on behalf of a government agency).
Finally, taking into account the purpose of
§ 1442(a)(1), the Court has considered whether the
private person’s activity is so closely related to the
government’s implementation of its federal duties
that the private person faces “a significant risk of
state-court ‘prejudice,’” just as a government employee would in similar circumstances, and may have
difficulty in raising an immunity defense in state
court. Watson, 551 U.S. at 152 (citation omitted).
As the Supreme Court has indicated, and circuit
courts have held, a government contractor may meet
the criteria for “acting under” an officer under certain
circumstances. See id. at 153–54. Watson cited with
approval a Fifth Circuit case, Winters v. Diamond
Shamrock Chemical Co., which held that a government contractor could remove a state action under
§ 1442(a) because the contractor was acting on behalf
of the government to produce Agent Orange, a carcinogenic herbicide used as part of the war strategy in
Vietnam, and was acting under the close direction of
the federal government which had provided “detailed
specifications concerning the make-up, packaging,
and delivery of Agent Orange,” as well as “on-going
supervision . . . over the formulation, packaging, and
delivery of Agent Orange.” 149 F.3d 387, 399–400
(5th Cir. 1998). Further, the contractor provided a
product that was “used to help conduct a war” and at
least arguably “performed a job that, in the absence of
a contract with a private firm, the Government itself
would have had to perform.” Watson, 551 U.S. at 153–

28a
54; see also Goncalves, 865 F.3d at 1246–47 (holding
that a private contractor was “acting under” a federal
officer when it was serving as an agent for the government and assisting the government in fulfilling basic
duties).
By contrast, a person is not “acting under” a federal officer when the person enters into an arm’slength business arrangement with the federal government or supplies it with widely available commercial
products or services. See Cabalce, 797 F.3d at 727–29;
Baltimore, 952 F.3d at 463–64; cf. Goncalves, 865 F.3d
at 1244–47; Winters, 149 F.3d at 398–400. Nor does a
person’s “compliance with the law (or acquiescence to
an order)” amount to “‘acting under,’ a federal officer
who is giving an order or enforcing the law.” Watson,
551 U.S. at 152. This is true “even if the regulation is
highly detailed and even if the private firm’s activities
are highly supervised and monitored.” Id. at 153. We
may not interpret § 1442(a) so as to “expand the scope
of the statute considerably, potentially bringing
within its scope state-court actions filed against private firms in many highly regulated industries.” Id.
The Energy Companies argue that they meet the
criteria under § 1442(a) to remove the Counties’ complaints because they were “persons acting under” a
federal officer based on three agreements with the
government. 9 They also argue that there is a causal
nexus between their actions under those agreements
and the Counties’ claims. We consider each of these
agreements in turn.

We have held that corporations are “person[s]” under
§ 1442(a)(1), Goncalves, 865 F.3d at 1244, so there is no dispute
that the Energy Companies meet this requirement.
9

29a
We first consider CITGO’s fuel supply agreements
with the Navy Exchange Service Command
(NEXCOM). Under these contracts, CITGO agreed to
supply gasoline and diesel fuel to NEXCOM for service stations on approximately forty U.S. Navy installations. The government resold the CITGO fuel at
NEXCOM facilities to individual service members.
The Energy Companies point to three sets of contractual requirements in the fuel supply agreements
which they claim establish the “subjection, guidance
or control” necessary to invoke federal jurisdiction,
namely: (1) “fuel specifications” that required compliance with specified American Society for Testing and
Material Standards and required that NEXCOM have
a qualified independent source analyze the products
for compliance with those specifications; (2) provisions
that give the Navy the right to inspect delivery, site,
and operations; and (3) branding and advertising requirements. 10
The Energy Companies cite the following sections in the fuel
supply agreements. First, the fuel specification provisions require CITGO to “provide high quality gasoline product identical
to or the same product as supplied [by] the contractor[‘]s commercially operated gasoline service station [e.g., regular leaded,
regular unleaded, and premium unleaded].” The “[m]otor fuel
products supplied” by CITGO were required to comply with the
generic standards promulgated by the American Society for Testing and Materials, and the Navy agreed to “have a qualified independent source analyze the products provided [by CITGO],” including any product that was “suspected of being faulty/inferior.”
Second, the inspection provisions gave the Navy the right to “visually check truck compartment(s) before and after deliveries” of
fuel and to conduct “general operational reviews,” which “might
also include inspections of . . . vehicles.” Third, the branding provisions require CITGO to “supply all necessary equipment, including signage, for each facility,” to “incorporate the Government logo on at least three . . . provided signage fixtures,” and to
10

30a
This argument fails. The provisions on which the
Energy Companies rely “seem typical of any commercial contract” and are “incidental to sale and sound in
quality assurance.” Baltimore, 952 F.3d at 464. The
contracts evince an arm’s-length business relationship to supply NEXCOM with generally available
commercial products. See id. Supplying gasoline to
the Navy for resale to its employees is not an activity
so closely related to the government’s implementation
of federal law that the person faces “a significant risk
of state-court prejudice.” Watson, 551 U.S. at 152. Accordingly, we hold that CITGO was not “acting under”
a federal officer by supplying gasoline and diesel fuel
to NEXCOM pursuant to fuel supply contracts.
Second, the Energy Companies point to the 1944
unit agreement 11 for the petroleum reserves at Elk
Hills between Standard Oil Company of California
(Chevron Corporation’s predecessor in interest) and
the U.S. Navy. We have detailed the history of this
unit agreement at length in our prior decisions. See
United States v. Standard Oil Co. of Cal., 545 F.2d
624, 626–28 (9th Cir. 1976). In brief, Standard owned
one-fifth and the Navy owned four-fifths of the ap-

supply “[a] standard service station rotating-fixed neon or incandescent street corner station identification sign . . . for each Government fueling station.” And CITGO could submit “proposals
on [CITGO] branded products,” but the government was not obligated to market “said product under [CITGO’s] brand or trade
name.”
“A unit agreement was at that time and still is a common
arrangement in the petroleum industry where two or more owners have interests in a common pool. Under such an arrangement, the pool is operated as a unit and the parties share production and costs in agreed-upon proportions.” United States v.
Standard Oil Co. of California, 545 F.2d 624, 627 (9th Cir. 1976).
11

31a
proximately 46,000 acres comprising the Elk Hills reserves. As is common in the oil exploration and production industry, the two landowners entered into a
unit agreement to coordinate operations in the oil field
and production of the oil. Because the Navy sought to
limit oil production in order to ensure the availability
of oil reserves in the event of a national emergency,
the unit agreement required that both Standard and
the Navy curtail their production and gave the Navy
“exclusive control over the exploration, prospecting,
development, and operation of the Reserve.” To compensate Standard for reducing production, the unit
agreement gave Standard the right to produce a specified amount of oil per day (an average of 15,000 barrels per day). Both parties could dispose of the oil they
extracted as they saw fit, and neither had a “preferential right to purchase any portion of the other’s share
of [the] production.”
Standard’s activities under the unit agreement
did not give rise to a relationship where Standard was
“acting under” a federal officer for purposes of § 1442.
Standard was not acting on behalf of the federal government in order to assist the government perform a
basic government function. Rather, Standard and the
government reached an agreement that allowed them
to coordinate their use of the oil reserve in a way that
would benefit both parties: the government maintained oil reserves for emergencies, and Standard ensured its ability to produce oil for sale. When Standard extracted oil from the reserve, Standard was acting independently, see Cabalce, 797 F.3d at 728–29,
not as the Navy’s “agent,” Goncalves, 865 F.3d at
1246; see also H.R. Rep. No. 112-17, pt. 1, at 3 (2011)
(“Removal is allowed only when the acts of Federal de-

32a
fendants are essentially ordered or demanded by Federal authority . . . .”). And Standard’s arm’s-length
business arrangement with the Navy does not involve
conduct so closely related to the government’s implementation of federal law that the Energy Companies
would face “a significant risk of state-court ‘prejudice.’” Watson, 551 U.S. at 152. 12
Finally, we consider the Energy Companies’ lease
agreements, entitled “Oil and Gas Leases of Submerged Lands Under the Outer Continental Shelf
Lands Act.” Under these standard-form leases, the
government grants the lessee the right to explore and
produce oil and gas resources in the submerged lands
of the outer Continental Shelf, and in exchange the
lessee agrees to pay the government rents and royalties. The Energy Companies argue that the lessee Energy Companies were “acting under” a federal officer
because the leases require that the lessees drill for oil
and gas pursuant to government-approved explora-

At oral argument, the Energy Companies argued for the first
time that Standard was “acting under” a federal officer pursuant
to the Naval Petroleum Reserves Production Act of 1976, Pub. L.
94-258, § 201, 90 Stat. 303 (1976), which directed the Secretary
of the Navy to “produce such reserves [including the Elk Hill reserve] at the maximum efficient rate consistent with sound engineering practices for a period not to exceed six years” and to “sell
or otherwise dispose of the United States share of such petroleum
produced from such reserves.” § 201, 90 Stat. at 308. Nothing in
the record indicates that the Secretary of the Navy “ordered or
demanded,” H.R. Rep. No. 112-17, pt. 1, at 3 (2011), reprinted in
2011 U.S.C.C.A.N. 420, 422, that Standard produce oil on behalf
of the Navy, see also Baltimore, 952 F.3d at 471 (“[W]e are left
wanting for pertinent details about Standard’s role in operating
the Elk Hills Reserve and producing oil therefrom on behalf of
the Navy.”). Therefore, the Energy Companies’ reliance on this
Act is misplaced.
12

33a
tion plans and that the lessees sell some of their production to certain buyers; specifically, lessees must offer twenty percent of their production to “small or independent refiners” and must give the United States
the right of first refusal in time of war or “when the
President of the United States shall so prescribe.”
This argument also fails. The leases do not require that lessees act on behalf of the federal government, under its close direction, or to fulfill basic governmental duties. Nor are lessees engaged in an activity so closely related to the government’s function
that the lessee faces “a significant risk of state-court
‘prejudice.’” Id. In fact, the lease requirements
largely track legal requirements, for instance, that the
lessee offer 20 percent of the “crude oil, condensate,
and natural gas liquids produced on [the] lease . . . to
small or independent refiners,” 43 U.S.C. § 1337(b)(7),
and that “[i]n time of war, or when the President shall
so prescribe, the United States shall have the right of
first refusal to purchase at the market price all or any
portion of any mineral produced from the outer Continental Shelf,” 43 U.S.C. § 1341(b). Mere “compl[iance]
with the law, even if the laws are ‘highly detailed, and
thus leave [an] entity ‘highly regulated,’” does not
show that the entity is “acting under” a federal officer.
Goncalves, 865 F.3d at 1245 (quoting Watson, 551 U.S.
at 151–53). We agree with the Fourth Circuit that
“the willingness to lease federal property or mineral
rights to a private entity for the entity’s own commercial purposes, without more” cannot be “characterized
as the type of assistance that is required” to show that
the private entity is “acting under” a federal officer.
Baltimore, 952 F.3d at 465. Accordingly, the leases on

34a
which the defendants rely do not give rise to the “unusually close” relationship where the lessee was “acting under” a federal officer. Watson, 551 U.S. at 153.
Because we conclude that the Energy Companies
have not carried their burden of proving by a preponderance of the evidence that they were “acting under”
a federal officer, we do not reach the question whether
actions pursuant to the fuel supply agreement, unit
agreement, or lease agreement had a causal nexus
with the Counties’ complaints, or whether the Energy
Companies can assert a colorable federal defense. See
Fidelitad, 904 F.3d at 1099.
***
We affirm the district court to the extent it held
there was no subject-matter jurisdiction under 28
U.S.C. § 1442(a)(1), and we dismiss the remainder of
the appeals for lack of jurisdiction under § 1447(d).
AFFIRMED IN PART; DISMISSED IN PART. 13

The Counties’ Motion for Partial Dismissal (ECF No. 41) is
GRANTED. See Patel, 446 F.3d at 1000. Costs shall be taxed
against the Energy Companies.
13

35a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
March 16, 2018
COUNTY OF SAN
MATEO,

Case No.
17-cv-04929-VC

Plaintiff,
v.
CHEVRON CORP.,
et al.,

Re: Dkt. No. 144

Defendants.
COUNTY OF IMPERIAL Case No.
BEACH,
17-cv-04934-VC
Plaintiff,
v.
CHEVRON CORP.,
et al.,

Re: Dkt. No. 140

Defendants.
COUNTY OF MARIN,
Plaintiff,
v.
CHEVRON CORP.,
et al.,
Defendants.

Case No.
17-cv-04935-VC
ORDER GRANTING
MOTIONS TO
REMAND
Re: Dkt. No. 140

36a
The plaintiffs’ motions to remand are granted.
1. Removal based on federal common law was
not warranted. In American Electric Power Co., Inc.
v. Connecticut, the Supreme Court held that the Clean
Air Act displaces federal common law claims that seek
the abatement of greenhouse gas emissions. 564 U.S.
410, 424 (2011). Far from holding (as the defendants
bravely assert) that state law claims relating to global
warming are superseded by federal common law, the
Supreme Court noted that the question of whether
such state law claims survived would depend on
whether they are preempted by the federal statute
that had displaced federal common law (a question the
Court did not resolve). Id. at 429. This seems to reflect the Court’s view that once federal common law is
displaced by a federal statute, there is no longer a possibility that state law claims could be superseded by
the previously-operative federal common law.
Applying American Electric Power, the Ninth Circuit concluded in Native Village of Kivalina v. ExxonMobil Corp. that federal common law is displaced
by the Clean Air Act not only when plaintiffs seek injunctive relief to curb emissions but also when they
seek damages for a defendant’s contribution to global
warming. 696 F.3d 849, 857-58 (9th Cir. 2012). The
plaintiffs in the current cases are seeking similar relief based on similar conduct, which means that federal common law does not govern their claims. In this
respect, the Court disagrees with People of the State
of California v. BP P.L.C., Nos. C 17-06011 WHA, C
17-06012 WHA (N.D. Cal. Feb. 27, 2018), which concluded that San Francisco and Oakland’s current lawsuits are materially different from Kivalina such that
federal common law could play a role in the current
lawsuits brought by the localities even while it could

37a
not in Kivalina. Like the localities in the current
cases, the Kivalina plaintiffs sought damages resulting from rising sea levels and land erosion. Not coincidentally, there is significant overlap between the defendants in Kivalina and the defendants in the current cases. 696 F.3d at 853-54 & n.1. The description
of the claims asserted was also nearly identical in Kivalina and the current cases: that the defendants’
contributions to greenhouse gas emissions constituted
“a substantial and unreasonable interference with
public rights.” Id. at 854. Given these facts, Kivalina
stands for the proposition that federal common law is
not just displaced when it comes to claims against domestic sources of emissions but also when it comes to
claims against energy producers’ contributions to
global warming and rising sea levels. Id. at 854-58.
Put another way, American Electric Power did not
confine its holding about the displacement of federal
common law to particular sources of emissions, and
Kivalina did not apply American Electric Power in
such a limited way.
Because federal common law does not govern the
plaintiffs’ claims, it also does not preclude them from
asserting the state law claims in these lawsuits.
Simply put, these cases should not have been removed
to federal court on the basis of federal common law
that no longer exists.
2. Nor was removal warranted under the doctrine of complete preemption. State law claims are often preempted by federal law, but preemption alone
seldom justifies removing a case from state court to
federal court. Usually, state courts are left to decide
whether state law claims are preempted by federal
law under principles of “express preemption,” “conflict
preemption” or “field preemption.” And state courts

38a
are entirely capable of adjudicating that sort of question. See, e.g., Smith v. Wells Fargo Bank, N.A., 38
Cal. Rptr. 3d 653, 665-73 (Cal. Ct. App. 2005), as modified on denial of reh’g (Jan. 26, 2006); Carpenters
Health & Welfare Trust Fund for California v.
McCracken, 100 Cal. Rptr. 2d 473, 474-77 (Cal. Ct.
App. 2000). A defendant may only remove a case to
federal court in the rare circumstance where a state
law claim is “completely preempted” by a specific federal statute — for example, section 301 of the Labor
Management Relations Act, section 502 of the Employment Retirement Income Security Act, or sections
85 and 86 of the National Bank Act. See Sullivan v.
American Airlines, Inc., 424 F.3d 267, 271-73 (2d Cir.
2005). The defendants do not point to any applicable
statutory provision that involves complete preemption. To the contrary, the Clean Air Act and the Clean
Water Act both contain savings clauses that preserve
state causes of action and suggest that Congress did
not intend the federal causes of action under those
statutes “to be exclusive.” 42 U.S.C. §§ 7604(e), 7416;
33 U.S.C. §§ 1365(e), 1370; Beneficial National Bank
v. Anderson, 539 U.S. 1, 9 n.5 (2003); Bell v. Cheswick
Generating Station, 734 F.3d 188, 194-97 (3d Cir.
2013). There may be important questions of ordinary
preemption, but those are for the state courts to decide
upon remand.
3. Nor was removal warranted on the basis of
Grable jurisdiction. The defendants have not pointed
to a specific issue of federal law that must necessarily
be resolved to adjudicate the state law claims. Grable
& Sons Metal Products, Inc. v. Darue Engineering &
Manufacturing, 545 U.S. 308, 314 (2005); see also Empire Healthchoice Assurance, Inc. v. McVeigh, 547 U.S.

39a
677, 700 (2006). Instead, the defendants mostly gesture to federal law and federal concerns in a generalized way. The mere potential for foreign policy implications (resulting from the plaintiffs succeeding on
their claims at an unknown future date) does not raise
the kind of actually disputed, substantial federal issue
necessary for Grable jurisdiction. Nor does the mere
existence of a federal regulatory regime mean that
these cases fall under Grable.
See Empire
Healthchoice, 547 U.S. at 701 (“[I]t takes more than a
federal element ‘to open the “arising under” door.’”
(quoting Grable, 545 U.S. at 313)). Moreover, even if
deciding the nuisance claims were to involve a weighing of costs and benefits, and even if the weighing
were to implicate the defendants’ dual obligations under federal and state law, that would not be enough to
invoke Grable jurisdiction. On the defendants’ theory,
many (if not all) state tort claims that involve the balancing of interests and are brought against federally
regulated entities would be removable. Grable does
not sweep so broadly. See Empire Healthchoice, 547
U.S. at 701 (describing Grable as identifying no more
than a “slim category” of removable cases); Grable,
545 U.S. at 313-14, 319.
4. These cases were not removable under any of
the specialized statutory removal provisions cited by
the defendants. Removal under the Outer Continental Shelf Lands Act was not warranted because even
if some of the activities that caused the alleged injuries stemmed from operations on the Outer Continental Shelf, the defendants have not shown that the
plaintiffs’ causes of action would not have accrued but
for the defendants’ activities on the shelf. See In re
Deepwater Horizon, 745 F.3d 157, 163 (5th Cir. 2014).
Nor was federal enclave jurisdiction appropriate,

40a
since federal land was not the “locus in which the
claim arose.” In re High-Tech Employee Antitrust Litigation, 856 F. Supp. 2d 1103, 1125 (N.D. Cal. 2012)
(quoting Alvares v. Erickson, 514 F.2d 156, 160 (9th
Cir. 1975)); see also Ballard v. Ameron International
Corp., No. 16-CV-06074-JSC, 2016 WL 6216194, at *3
(N.D. Cal. Oct. 25, 2016); Klausner v. Lucas Film Entertainment Co, Ltd., No. 09-03502 CW, 2010 WL
1038228, at *4 (N.D. Cal. Mar. 19, 2010); Rosseter v.
Industrial Light & Magic, No. C 08-04545 WHA, 2009
WL 210452, at *2 (N.D. Cal. Jan. 27, 2009). Nor was
there a reasonable basis for federal officer removal,
because the defendants have not shown a “causal
nexus” between the work performed under federal direction and the plaintiffs’ claims, which are based on
a wider range of conduct. See Cabalce v. Thomas E.
Blanchard & Associates, Inc., 797 F.3d 720, 727 (9th
Cir. 2015); see also Watson v. Philip Morris Companies, Inc., 551 U.S. 142, 157 (2007). And bankruptcy
removal did not apply because these suits are aimed
at protecting the public safety and welfare and
brought on behalf of the public. See City & Cty. of San
Francisco v. PG & E Corp., 433 F.3d 1115, 1123-24
(9th Cir. 2006); Lockyer v. Mirant Corp., 398 F.3d
1098, 1108-09 (9th Cir. 2005). To the extent two defendants’ bankruptcy plans are relevant, there is no
sufficiently close nexus between the plaintiffs’ lawsuits and these defendants’ plans. See In re Wilshire
Courtyard, 729 F.3d 1279, 1287 (9th Cir. 2013).
* * *
As the defendants note, these state law claims
raise national and perhaps global questions. It may
even be that these local actions are federally
preempted. But to justify removal from state court to
federal court, a defendant must be able to show that

41a
the case being removed fits within one of a small
handful of small boxes. Because these lawsuits do not
fit within any of those boxes, they were properly filed
in state court and improperly removed to federal
court. Therefore, the motions to remand are granted.
The Court will issue a separate order in each case to
remand it to the state court that it came from.
At the hearing, the defendants requested a short
stay of the remand orders to sort out whether a longer
stay pending appeal is warranted. A short stay is appropriate to consider whether the matter should be
certified for interlocutory appeal, whether the defendants have the right to appeal based on their dubious
assertion of federal officer removal, or whether the remand orders should be stayed pending the appeal of
Judge Alsup’s ruling. Therefore, the remand orders
are stayed until 42 days of this ruling. Within 7 days
of this ruling, the parties must submit a stipulated
briefing schedule for addressing the propriety of a
stay pending appeal. The parties should assume that
any further stay request will be decided on the papers;
the Court will schedule a hearing if necessary.
IT IS SO ORDERED.
Dated: March 16, 2018
__/s/ Vince Chhabria
VINCE CHHABRIA
United States District Judge

42a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
July 10, 2018
COUNTY OF SANTA
CRUZ,

Case No.
18-cv-00450-VC

Plaintiff,
v.
CHEVRON CORP.,
et al.,

Re: Dkt. No. 68

Defendants.
CITY OF SANTA CRUZ,
Plaintiff,

Case No.
18-cv-00458-VC

v.
CHEVRON CORP.,
et al.,
Defendants.
CITY OF RICHMOND,
Plaintiff,
v.
CHEVRON CORP.,
et al.,
Defendants.

Re: Dkt. No. 66
Case No.
18-cv-00732-VC
ORDER GRANTING
MOTIONS TO
REMAND
Re: Dkt. No. 45

43a
For the reasons stated in this Court's prior order,
see Order Granting Motions to Remand, No. 3:17-cv04929-VC (Dkt. No. 223), as well as for the reasons
stated in Coronel v. AK Victory, 1 F. Supp. 3d 1175,
1178-89 (W.D. Wash. 2014), the motions to remand
filed by the County of Santa Cruz, City of Santa Cruz,
and City of Richmond are granted. However, the remand orders are stayed pending the outcome of the
appeals in the County of San Mateo, City of Imperial
Beach, and County of Marin cases.
IT IS SO ORDERED.
Dated: July 10, 2018
__/s/ Vince Chhabria
VINCE CHHABRIA
United States District Judge

44a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
August 4, 2020
COUNTY OF SAN
MATEO, individually and
on behalf of the People of
the State of California,
Plaintiff-Appellee,
v.
CHEVRON
CORPORATION; et al.,
Defendants-Appellants.
CITY OF IMPERIAL
BEACH, individually and
on behalf of the People of
the State of California,
Plaintiff-Appellee,
v.
CHEVRON
CORPORATION; et al.,
Defendants-Appellants.

No. 18-15499
D.C. No. 3:17-cv04929-VC
Northern District of
California, San Francisco
ORDER

No. 18-15502
D.C. No. 3:17-cv04934-VC
Northern District of
California, San Francisco

45a
COUNTY OF MARIN, individually and on behalf of
No. 18-15503
the People of the State of
D.C. No. 3:17-cvCalifornia,
04935-VC
Plaintiff-Appellee,
Northern District of
v
California, San FranCHEVRON
cisco
CORPORATION; et al.,
Defendants-Appellants.
COUNTY OF SANTA
CRUZ, individually and on
behalf of The People of the
State of California; et al.,
Plaintiffs-Appellees,
v.
CHEVRON
CORPORATION; et al.,
Defendants-Appellants.

No. 18-16376
D.C. Nos.
3:18-cv-00450-VC
3:18-cv-00458-VC
3:18-cv-00732-VC
Northern District of
California, San Francisco

46a
Before: IKUTA, CHRISTEN, and LEE, Circuit
Judges.
The panel has unanimously voted to deny Appellants’ Petition for Rehearing En Banc (ECF No. 222).
The full court has been advised of the Petition for
Rehearing En Banc, and no Judge has requested a
vote on whether to rehear the matter en banc. Fed. R.
App. P. 35.
The Petition for Rehearing En Banc is DENIED.
Dated: August 4, 2020

